                      Closeout of M90070026
                                                                     I
This case w a s brought to the attention of OIG on July 2, 1990 by
the Office of Scientific Intearitv. NIH.      They had received a



submitted grant applications partially or completely copied from
his without his consent. Some of these proposals had been sent
to the National Science Foundation.
OSI, acting as lead agency, contacted the institution, which
decided to conduct an inquiry.    It found that, because of the
close collaboration of the complainant and the subject in the
past, the proposals involved shared intellectual property. Thus,
it did not find misconduct, but it did find that the subject had
breached normal research decorum in submitting his proposals
without the complainant's consent.       The subject received a
critical letter from the university administration and was
admonished to exercise extreme care in scientific relationships
in the future and to seek consultation where necessary with
senior academicians.
OIG believes that this is a satisfactory resolution of this case.
It should now be closed out, and OSI and the institution should
be notified.




Copy: Inspector General
